   April 14, 2004




Acquisition
The NATO AWACS Mid-Term
Modernization Program “Global
Solution”
(D-2004-069)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AEW&C                 Airborne Early Warning and Control
AWACS                 Airborne Warning and Control System
CJCSI                 Chairman of the Joint Chiefs of Staff Instruction
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
EMD                   Engineering and Manufacturing Development
ESC                   U.S. Air Force Electronic Systems Center
FAR                   Federal Acquisition Regulation
MMOU                  Multilateral Memorandum of Understanding
NAPMA                 NATO AEW&C Programme Management Agency
NAPMO                 NATO Airborne Early Warning and Control Program Management
                         Organization
NATO                  North Atlantic Treaty Organization
NMT                   NATO E-3 Mid-Term Modernization
ORD                   Operational Requirements Document
              Office of the Inspector General of the Department of Defense
Report No. D-2004-069                                                                      April 14, 2004
    (Project No. D2004CF-0068)

              The NATO AWACS Mid-Term Modernization Program
                           “Global Solution”

                                         Executive Summary

Who Should Read This Report and Why? DoD Senior Acquisition Executives, North
Atlantic Treaty Organization (NATO) officials, contracting officials, attorneys, program
managers, and military personnel involved in negotiating, awarding, and administering
contracts should read this report. This report discusses the analyses required to
determine a fair and reasonable price for the award of a contract modification to the
Boeing Company by the U.S. Air Force Electronics Systems Center on behalf of the
NATO Airborne Early Warning and Control Program Management Organization.
Contributing to the importance to analyze the Boeing price was the fact that the
negotiator, on behalf of the U.S. Government, was the former Principal Deputy Assistant
Secretary of the Air Force for Acquisition and Management, who later went to work for
Boeing.* This report also identifies problems on determining a fair and reasonable price
similar to those described in our report on the “Acquisition of the Boeing KC-767A
Tanker Aircraft,” March 29, 2004.

Background. On December 18, 2003, the Secretary of the Air Force, through the
Deputy Assistant Secretary of the Air Force for Contracting, requested that we review the
negotiations of a contract modification which occurred in calendar year 2002 to
restructure the NATO Airborne Warning and Control System (AWACS) Mid-Term
Modernization Program that became known as the “Global Solution.” The focus of the
review was to determine whether correct business and contracting procedures were
followed. Since the former Principal Deputy Assistant Secretary of the Air Force for
Acquisition and Management who was also the Chairman of the NATO Airborne Early
Warning and Control Program Management Organization Board of Directors conducted
the negotiations, the Secretary of the Air Force was also concerned that the negotiations
were properly conducted.

The E-3 AWACS represents the standard for the world for the airborne early warning
systems. Equipped with a “look-down” radar, the AWACS can separate airborne targets
from the ground and sea clutter returns that confuse other present-day radars. The NATO
AWACS surveillance system is integrated into 18 commercial Boeing 707-320B aircraft,
modified to accommodate the mission equipment and crew of 17.

The NATO AWACS Mid-Term Modernization Program consists of a set of
improvements to expand the performance and flexibility of the existing NATO fleet of
18 aircraft. The U.S. Air Force Electronics Systems Center, acting as a procurement
agent for the NATO Airborne Early Warning and Control Program Management
Organization, awarded Boeing a contract for the engineering and manufacturing
*
    This report does not address matters under investigation by other Components of the Office of the
     Inspector General.
development phase of this program. Boeing encountered performance problems on the
contract and a contract modification was developed to resolve those problems. The
“Global Solution,” restructured the initial contract and addressed the performance
problems, thereby reducing program risk for developing the enhancements to the NATO
AWACS. The Global Solution modification, which increased the contract amount from
$551.3 million to $1.34 billion, included future options for production and retrofit. The
$1.34 billion also included $.02 billion for added follow-on spare parts and costs for
other unresolved contract issues that were not included in the contract negotiations.

Results. Senior level managers did not use appropriate business and contracting
procedures as specified in the Federal Acquisition Regulation when they negotiated the
Global Solution in September 2002. When the senior level managers were determining
whether the $1.32 billion negotiated price was fair and reasonable, they did not use a
Government cost estimate, an integrated product team to analyze the proposed statement
of work, a technical evaluation of labor hours and labor mixes, audit assistance to review
direct and indirect rates, and weighted guidelines to establish reasonable profit and share
ratios. Air Force contracting officials awarded the Global Solution contract modification
in December 2002 without knowing whether the $1.32 billion cost was fair and
reasonable.

The U.S. representative to the NATO Airborne Early Warning and Control Program
Management Organization Board of Directors needs to ensure that options (production
and retrofit) included as part of the contract modification are not approved until thorough
analyses of Boeing technical and cost proposals are completed. The Commander, Air
Force Electronic Systems Center, should not award contract line item options contained
in the NATO AWACS Mid-Term Modernization Program Global Solution contract until
the final negotiated price is determined to be fair and reasonable. In addition, the
Commander should ensure that the contracting officer negotiates a fully documented and
justifiable fair and reasonable price for the production and retrofit phase of the NATO
AWACS Mid-Term Modernization Program. (See the Finding section of the report for
the detailed recommendations.)

Management Comments and Audit Response. The Deputy Assistant Secretary of the
Air Force for Contracting and the Commander, Electronic Systems Center, concurred that
the Global Solution price was determined without first completing an independent cost
estimate, an integrated product team analysis, a technical evaluation of hours and labor
mixes, audit assistance, and weighted guidelines to establish a negotiation objective for
profit. The Deputy Assistant Secretary and the Commander concurred with the intent of
all recommendations and stated that the technical and cost analyses would be completed,
but the Air Force needs to award production and retrofit options as an undefinitized
contract action so that the NATO E-3 Mid-Term Modernization Program can proceed
while the Electronic Systems Center and the NATO Airborne Early Warning and Control
Programme Management Agency (NAPMO) conduct technical and cost analyses. An
expert team would not be used to do a technical review of Boeing’s proposed solution
unless changes are made to the statement of work. The Deputy Assistant Secretary stated
that using an undefinitized contract action provided the most benefit to the NAPMO
nations because production and retrofit program content and schedule would remain the
same as under the Global Solution and would not be negotiated further and prices could
only be equal to or less than the prices the NAPMO nations had previously determined to
be acceptable.




                                             ii
The Air Force comments are responsive to the intent of the recommendations. The Air
Force decision to use an undefinitized contract action as a bridging action does not lessen
the responsibility of the Air Force Electronic System Center to obtain and document a
fair and reasonable price for the NATO AWACS production and retrofit tasks. We do
not agree that a technical review of Boeing’s proposed solution should be limited to
changes made to the scope of work. We request that by May 28, 2004, the Commander,
Electronic Systems Center reconsider his position on the use of an expert team to
evaluate Boeing’s technical solution and submit additional comments. See the Finding
section of this report for a discussion of management comments and the Management
Comments section of this report for the complete text of the comments.




                                            iii
Table of Contents

Executive Summary                                                      i

Background                                                            1

Objective                                                             3

Finding
     Negotiation of the “Global Solution” Contract Modification        4

Appendixes
     A. Scope and Methodology                                         14
          Prior Coverage                                              15
     B. Global Solution Contract Modification Major Cost Areas        16
     C. Program Risk Reduction                                        18
     D. Major Elements of the Global Solution Contract Modification   21
     E. Report Distribution                                           22

Management Comments
     Department of the Air Force                                      25
Background
    The audit was performed at the request of the Secretary of the Air Force made
    through the Deputy Assistant Secretary of the Air Force for Contracting. On
    December 18, 2003, the Secretary of the Air Force requested that we review the
    negotiation of the contract restructure to the NATO AWACS Mid-Term
    Modernization Program that became known as the “Global Solution.”

    The North Atlantic Treaty Organization (NATO) E-3 Airborne Warning and
    Control System (AWACS). The NATO E-3 cooperative program consists of
    AWACS aircraft that represent the standard for the world for airborne early warning
    systems. Equipped with a “look-down” radar, the AWACS can separate airborne
    targets from the ground and sea clutter returns that confuse other present-day radars.
    In 1978, the Boeing Company (Boeing), as prime contractor, teamed with
    subcontractors in the Federal Republic of Germany, Canada, and the United States to
    provide the NATO alliance with 18 E-3 systems. The NATO E-3 aircraft was built
    based on the earlier developed and deployed U.S. Air Force E-3 aircraft. The NATO
    AWACS surveillance system is integrated into a commercial Boeing 707-320B
    aircraft, modified to accommodate the mission equipment and a crew of 17. The
    modified Boeing 707-320B is distinguished by the addition of a large, rotating
    rotodome that contains the aircraft radar antenna. The NATO Airborne Early
    Warning and Control (AEW&C) Program Management Organization (NAPMO)
    who normally meets in Brunssum, the Netherlands, was established to manage the
    acquisition of the 18 aircraft and supporting equipment and trainers.

    NAPMO is headed by a board of directors with representatives from the 13 countries
    (Belgium, Canada, Denmark, Germany, Greece, Italy, Luxembourg, the Netherlands,
    Norway, Portugal, Spain, Turkey, and the United States) that participate in the
    NATO AWACS program. The current Chairman of the Board is the U.S. Air Force
    Program Executive Officer for Services. There is also a U.S. representative on the
    board, the Deputy Assistant Secretary of the Air Force for Contracting. The former
    Principal Deputy Assistant Secretary of the Air Force for Acquisition and
    Management was the Chairman of the Board for NAPMO from 1994 through 2002.

    The NATO E-3 Mid-Term Modernization (NMT) Program. The NMT program
    consists of a set of improvements to expand the performance and flexibility of the
    existing NATO E-3 fleet. According to the “Acquisition Agreement between the
    United States Government and NAPMO for Acquisition of the NATO E-3 Aircraft,
    Engines and Related Articles, and Services,” January 17, 2001, (the Acquisition
    Agreement) the U.S. Air Force acts as a procurement agent for NAPMO and is
    responsible for procuring NMT program upgrades. As the U.S. representative on the
    NAPMO Board of Directors and as a procurement agent, the Deputy Assistant
    Secretary of the Air Force for Contracting has a responsibility to ensure that NATO
    is treated fairly. Additionally, NAPMO has a Board of Directors and is supported by
    the NATO AEW&C Programme Management Agency (NAPMA), also
    headquartered in Brunssum, the Netherlands. NAPMO has delegated the authority
    to the NAPMA general manager to plan, coordinate, contract, administer, and
    expend funds.




                                          1
Contract F19628-97-C-0112. In November 1997, the U.S. Air Force Electronics
Systems Center (ESC), acting as an agent for NAPMO, awarded
Contract F19628-97-C-0112 to Boeing for the engineering and manufacturing
development (EMD) phase of the NMT program. Boeing, supported by contractors
from participating NATO nations, was contracted to integrate major system-related
enhancements to computers, displays, communications, navigation and target
identification. ESC established contract F19628-97-C-0112 as a fixed-price
incentive-firm target effort with a ceiling price of $452 million and expected Boeing
to complete the effort within 46 months. The contract was a result of a negotiated
procurement accomplished under Federal Acquisition Regulation (FAR) Part 15.
The contract was a direct commercial sale from Boeing to NATO in accordance with
section 38 of the Arms Export Control Act (22 U.S.C. 2778), not a foreign military
sale by the U.S. Government. As an agent for NAPMO, ESC operated under
guidance provided by the Arms Export Control Act and under the authority of the
“Multilateral Memorandum of Understanding (MMOU) among NATO Ministers of
Defense on the NATO E-3 Cooperative Programme (the MMOU),” December 6,
1978, the NAPMO charter, and the Acquisition Agreement.

Contract Pricing. FAR Subpart 15.4, “Contract Pricing,” prescribes price
negotiation policies and procedures for prime contracts and contract modifications.
FAR 15.402 states that contracting officers must purchase supplies and services from
responsible sources at fair and reasonable prices. The contracting officer is
responsible for the determination of price reasonableness for the prime contract,
including subcontracting costs. FAR 15.402 also states that contracting officers
must price each contract separately and independently and not consider losses or
profits realized or anticipated under other contracts.

        Cost or Pricing Data. FAR 15.403 states that contracting officers will
obtain certified cost or pricing data for all contract actions valued over $550,000
except when:

       •   the price is based on adequate price competition,

       •   the prices are set by law or regulation,
       •   a commercial item is being acquired,

       •   a waiver has been granted, or

       •   the contracts or subcontracts for commercial items have been modified.

FAR 15.403 also states that unless an exception applies, certified cost or pricing data
are required before awarding negotiated contracts and subcontracts. FAR 15.404
states that contracting officers shall use cost analysis to evaluate the reasonableness
of individual cost elements when cost or pricing data are required and use price
analysis to verify that the overall price offered is fair and reasonable. FAR 15.406
states that when cost or pricing data are required, the contracting officer must require
the contractor to execute a Certificate of Current Cost or Pricing Data.




                                       2
            Technical Analysis. FAR 15.404 states that the contracting officer may
    request that personnel having specialized knowledge, skills, experience, or capability
    in engineering, science, or management perform a technical analysis of the proposed
    types and quantities of materials, labor, processes, special tooling, facilities, and
    other associated factors set forth in proposals to determine the need for and
    reasonableness of the proposed resources, assuming reasonable economy and
    efficiency. In our opinion, for a complex program such as the NATO AWACS
    program, the technical analysis should, at a minimum, examine the types and
    quantities of material proposed and the need for the types and quantities of labor
    hours and the labor mix.

            Audit Assistance. FAR 15.404 states that the contracting officer should
    request audit assistance when the information available is inadequate to determine a
    fair and reasonable price.

            Profit. The Defense Federal Acquisition Regulation Supplement 215.404-4,
    “Profit,” states that contracting officers must use the weighted guidelines method for
    developing a prenegotiation profit or fee objective on any negotiated contract action
    when cost or pricing data is obtained. The Defense Federal Acquisition Regulation
    Supplement 215.406-3, “Documenting the Negotiation,” states that the contracting
    officer must document significant deviations from the prenegotiation profit objective
    and include the Record of Weighted Guidelines Application form with supporting
    rationale. The documentation must address the rationale for not using the weighted
    guidelines method when its use would otherwise be required.


Objective
    Our overall audit objective was to determine whether correct business and
    contracting processes were used in the negotiations and award of the NATO
    AWACS Program “Global Solution.” See Appendix A for a discussion of the scope
    and methodology.




                                          3
                 Negotiation of the “Global Solution”
                 Contract Modification
                 The senior level managers1 that conducted the negotiations of the Global
                 Solution modification did not use correct business and contracting practices
                 as specified in the Federal Acquisition Regulation to arrive at a negotiated
                 amount. Specifically, the managers did not perform analyses of production
                 and retrofit tasks to determine whether the $1.32 billion negotiated price was
                 fair and reasonable. The former Principal Deputy Assistant Secretary of the
                 Air Force for Acquisition and Management (who, at the time, was also the
                 Chairman of the NAPMO Board of Directors) and the NAPMA General
                 Manager conducted negotiations with the Chief Executive Officer of Boeing
                 Integrated Defense Systems and determined a price without the benefit of:

                          •    an independent Government cost estimate;

                          •    an analysis of the contractor’s proposed solution to meet the
                               Government requirements;

                          •    a technical evaluation to determine whether prime and sub-
                               contractor hours and labor mixes were reasonable;

                          •    audit assistance to review prime and sub-contractor proposed
                               direct and indirect rates; and

                          •    calculation of weighted guidelines, used to determine reasonable
                               profit and share ratios.

                 As a result, Air Force officials awarded the contract modification without
                 knowing whether Boeing had proposed an efficient, technically capable or
                 economically responsible solution. The U.S. Government should not approve
                 the award of the contract modification options for production and retrofit
                 items until the above stated items are completed.


Global Solution Contract Modification
        The Global Solution, worth $1.32 billion (not to be less or greater than), is for the
        completion of the entire NATO Mid-Term Modernization Program according to a
        document entitled, “Guidance to the Government/Boeing Team for the Development
        of a NATO Mid-Term Win/Win Global Solution Agreement,” dated September 26,
        2002. However, contract modification P00068, which represents the Global
        Solution, totals $1.34 billion because it includes $.02 billion for added follow-on
        spares and other unresolved contract issues that were not included in the contract

1
  Of the three senior level managers, the U.S. Government representative was the former Principal Deputy
Assistant Secretary of the Air Force for Acquisition and Management who negotiated the contract in place of
the contracting officer through the authority delegated by Assistant Secretary of the Air Force (Acquisition)
Memorandum, “Delegation of Contract and Agreement Authority,” November 30, 1999.



                                                      4
          negotiations. Contract modification P00068 increases the former amount on the
          contract, $551.3 million, by $277.8 million, adds long-lead items worth
          $42.2 million, and contains production and retrofit options worth $472.9 million, for
          a revised total contract value of $1.34 billion.

          The NAPMO Board of Directors2 and the contracting officer have approved contract
          modification P00068. The NAPMO Board of Directors, with the exception of the
          U.S. representative, has approved the production and retrofit option portion of the
          contract modification. The U.S. representative has stated that he will not approve
          the production and retrofit option until he evaluates the results of this audit. The
          option for production and retrofit requires unanimous NAPMO Board of Directors
          approval.

          To negotiate a “Global Solution” to the problems encountered by Boeing in the
          performance of the EMD contract, the former Principal Deputy Assistant Secretary
          of the Air Force for Acquisition and Management, who was also the Chairman of the
          NAPMO Board of Directors, along with the NAPMA General Manager, a general in
          the German Air Force and the Chief Executive Officer of Boeing Integrated Defense
          Systems held monthly senior level management meetings from November 13, 2001,
          through November 13, 2002. The meetings began because Boeing had advised the
          Air Force that performance on the EMD contract signed in November 1997 was
          behind schedule and that the estimate of cost at completion of the contract had grown
          significantly. By May 2001 Boeing projected a $123 million financial loss on the
          contract. The EMD schedule was suffering serious delays because of the complexity
          of the effort, diminishing manufacturing sources, and other technical issues.

          The Global Solution contract modification that was subsequently negotiated resulted
          in a program with less risk for NATO than the original contract to develop and test
          enhancements to NATO AWACS aircraft and avoided litigation to adjudicate an
          equitable price adjustment request proposed by Boeing. The negotiation of the
          Global Solution contract modification focused mainly on two cost areas: the
          increase in the ceiling price of EMD, valued at $100 million, and priced options for
          NMT production and retrofit, valued at $472.9 million. The $472.9 million consists
          of $449.5 million for the NMT program and $23.4 million for diminished
          manufacturing sources options. Consequently, the contracting officer developed two
          price negotiation memorandums, one for the increase in ceiling price of EMD and
          one for the priced options for NMT production and retrofit. The following table
          identifies the four major cost areas of the global solution contract modification and
          associated values.




2
    The NAPMO Board of Directors consists of representatives from the 13 NAPMO member nations that
    participate in the NATO AWACS program.



                                                    5
                           Major Areas Comprising Global Solution

                                                                                Value
                                Major Cost Areas
                                                                             (in Millions)
    Amount On Contract Before Global Solution Modification                  $ 551.3
    Restructuring of Contract                                                  177.8
    1) EMD Ceiling Price Increase                                              100.0
    2) NMT Production And Retrofit Options ($449.5 million) and
        Diminishing Manufacturing Sources Options ($23.4 million)               472.9
    3) Revised Long Lead Items                                                   42.2
    4) EMD Specification Relief                                               not separately
                                                                                 priced

     Total                                                                  $ 1,344.2

     See Appendix B for detailed information related to the Global Solution contract
     modification major cost areas, Appendix C for detailed information related to
     program risk reduction, and Appendix D for a list of the 28 major elements identified
     in the modification.


Global Solution Negotiations
     The senior level managers that conducted the negotiations of the Global Solution did
     not use correct business and contracting practices during the negotiations. The FAR
     identifies various analytical techniques for the contracting officer to use to ensure
     that the final negotiated contract provides the best technical solution as well as a
     price that is fair and reasonable. Some of these techniques are price analysis, cost
     analysis, cost realism analysis, technical analysis, field pricing assistance, and audit
     assistance. ESC contracting and program officials supporting the senior level
     managers focused their efforts on the increase in the EMD ceiling and did not
     complete analyses on the amount and price reasonableness of the NMT production
     and retrofit options before final negotiations. Accordingly, we believe that at the
     time the final price for the Global Solution was negotiated by the former Principal
     Deputy Assistant Secretary of the Air Force for Acquisition and Management, she
     had not been provided sufficient information by the ESC contracting and program
     officials to know whether the negotiated price of the contract modification was fair
     and reasonable.

     EMD Ceiling Price Increase Analyses. During the negotiations related to the EMD
     ceiling price increase, ESC performed a series of analyses in order to determine
     whether the $100 million ceiling price increase was fair and reasonable. The
     specific analyses are identified in the Global Solution Contract Modifications Major


                                             6
Cost Areas, Appendix B, and include an independent technical analysis and an
independent damage analysis. The contracting officer stated in the price negotiation
memorandum for the increase in ceiling price of EMD that
           . . . based on the analyses previously identified in this PNM [price
           negotiation memorandum], the negotiated amount, $101.2 [million] in
           conjunction with the agreed to release of liability, schedule and
           specification release, and reformation of the contract, is considered to be a
           fair and reasonable settlement of the issues which places the risk of
           completing the remaining portion of the contract within the revised budget
           on Boeing.

We reviewed the documents the contracting officer relied upon as a basis for the
contract modification and concur with the contracting officer’s reasoning that the
ceiling price increase was a fair settlement of the EMD issues. However, the
Government should not negotiate more favorable terms with Boeing on the
production and retrofit portion of the contract because of Boeing losses that have
already occurred on the EMD portion of the contract.

NMT Production and Retrofit Options Analyses. An evaluation of the technical
solution or price evaluations were never finalized for the options included as part of
the modification. ESC contracting officials had assembled an integrated process
team of Boeing, Government, and NAPMA officials to analyze the production and
retrofit tasks and were in the process of performing a technical evaluation of the
Boeing cost proposal. ESC had put together a team of approximately 40 experts to
review the proposal from Boeing. The team visited the Boeing production facility in
Seattle, Washington, on a fact-finding trip in September 2002. However the fact-
finding review that began on September 11, 2002, was never completed because a
final price was negotiated during senior level management meetings on
September 26, 2002. In addition, there is no documentation that the program office
developed an independent Government cost estimate, requested audit assistance to
review subcontractor costs, or used weighted guidelines to calculate reasonable
profit and share ratios for the contract.

        Price Reasonableness Determination. The ESC contracting officer who
awarded the Global Solution modification took a “firm” position of not certifying
that the price negotiated for the NMT production and retrofit portion of the Global
Solution modification was fair and reasonable in the price negotiation memorandum.
The contracting officer’s fair and reasonable price certification is normally a
required section of the price negotiation memorandum. The contracting officer
stated that he normally makes fair and reasonable determinations after reviewing the
results of analyses performed by the Defense Contract Audit Agency (DCAA), the
Defense Contract Management Agency (DCMA), program office technical
evaluations, and independent Government cost estimates and, in this instance, an
analysis performed by an Integrated Process Team (One Pass). The contracting
officer stated that although those analyses had begun, except for the Government
cost estimate that the program office had not developed, the analyses were not
completed. The contracting officer stated that once the negotiation team realized




                                            7
            that the $1.323 billion price negotiated during the senior level meetings was not a
            target price, but was a price not to be less than or more than, and therefore no longer
            negotiable, the team did not complete the analyses. Other ESC contracting officials
            including the pricing analyst and the Chief of AWACS International Contracts also
            concluded that once senior level officials set the $1.32 billion price, there was no
            reason to complete the ongoing technical and price analyses for the production and
            retrofit option portions of the contract modification.

            The Global Solution including the production and retrofit options was reviewed and
            approved by the ESC Judge Advocate Division and the Chief of AWACS
            International Contracts. The Chief of AWACS International Contracts approved the
            Global Solution without the contracting officer’s certification for fair and reasonable
            pricing because he thought that price reasonableness was not an issue since the
            former Principal Deputy Assistant Secretary of the Air Force for Acquisition and
            Management had taken charge of the negotiations.

                    Certificate of Current Cost or Pricing Data. The contracting officer also
            stated that before he would sign the Global Solution modification, Boeing had to
            submit a Certificate of Current Cost or Pricing Data to support the Boeing cost
            proposal. The contracting officer thought that by requiring certified cost or pricing
            data, the Government would be able to recoup payments made to Boeing if the prices
            negotiated were much higher than actually experienced. The contracting officer was
            concerned that most of the subcontracts that would be necessary to support the
            Global Solution had not been awarded. Therefore, the proposed Boeing cost could
            be much higher than the actual cost Boeing would negotiate with subcontractors. As
            a result, Boeing provided two certificates of current cost or pricing data—one for the
            Boeing Global Solution proposal data except for follow-on spares and another
            certificate for the follow-on spares. In addition, a waiver of the FAR Part 15
            requirement for certified cost or pricing data was obtained pertaining to the EMD
            ceiling price increase. Although the EMD ceiling price increase resolved Boeing’s
            claims against the Government, we disagree that a waiver from certified cost or
            pricing data on this issue was appropriate.

            Because there were no completed analyses for the contracting officer to use as a
            basis for determining price reasonableness, the contracting officer was correct to not
            certify the negotiated price as fair and reasonable. We commend the contracting
            officer for obtaining certified cost or pricing data. The U.S. representative to the
            NAPMO Board of Directors should not approve the exercise of the priced options
            related to the NMT production and retrofit portion of the Global Solution until
            adequate analyses are performed and reviewed and the options are determined to be
            fair and reasonable by the contracting officer. In the interim, ESC will have to
            negotiate with Boeing and establish some type of a “bridging” agreement while the
            analyses are occurring so that the NMT program can remain viable. However, such
            an agreement should not serve as approval of the contract in question.

            On January 30, 2004, the Director, Contract Management Directorate, Inspector
            General of the Department of Defense, requested that DCAA perform a post award
3
    The Global Solution actually totals $1.34 billion because the negotiated $1.32 billion price does not include
    $.02 billion of added follow-on spares and other unresolved contract issues costs that were not included in the
    contract negotiations.



                                                          8
     audit for defective pricing of the prime contractor and major subcontracts for
     Contract F19628-97-C-0112, modification P00068. The Certificates of Current Cost
     or Pricing Data will ensure the Government is adequately protected if the contractor
     knowingly submitted inflated costs in the cost proposal. The results of the DCAA
     audit will be provided to the Commander, U.S. Air Force Electronic Systems Center.


Final Price Negotiation
     On September 26, 2002, the NAPMO Board of Directors Chairman (also the former
     Principal Deputy Assistant Secretary of the Air Force for Acquisition and
     Management), the NAPMA General Manager, and the Boeing President and Chief
     Executive Officer of Integrated Defense Systems, negotiated a final price for the
     Global Solution contract modification of $1.32 billion while analyses to determine
     fair and reasonable prices were in process. A letter of intent to finalize negotiations
     between NAPMO and the Boeing Company on the Global Solution for the
     completion of the NAPMO Mid-Term Modernization Program was signed by the
     senior leadership management team on October 15, 2002. A NATO Mid-Term
     Global Solution Business Agreement that contained general ground rules applicable
     to all elements of the Global Solution proposal was signed by the ESC contracting
     officer as procurement agent for NAPMO, a NAPMA contracts representative, and a
     Boeing contracts representative on October 15, 2002.

     The negotiations were concluded in October to allow the ESC office to prepare a
     contract modification to be ready for signature by December 19, 2002. Several ESC
     personnel stated that they understood Boeing desired the modification to be signed in
     December so that Boeing could “book receipts,” that is, show the revenue from the
     contract modification on the Boeing 2002 financial statements. Another explanation
     for the December deadline was so that the completed negotiations could be presented
     to the NAPMO Board of Directors who were scheduled to meet that month.


Conclusion
     Fact-finding reviews and technical reviews attempt to ensure that Government
     contracts contain technically sound tasks that will be efficiently performed. Air
     Force officials conceded that the NMT program EMD contract had been beset by
     technical and cost problems since program inception. The restructure and ceiling
     price increase of the EMD contract are expensive solutions to problems that could
     possibly have been avoided with more robust fact-finding and technical reviews. To
     fund production and retrofit tasks under the same program without fact-finding and
     technical reviews increases the risk of future program problems. The Air Force ESC
     contracting officer signed a contract modification without adequately knowing
     whether the contractor has proposed an efficient, technically sound solution for the
     Government and NAPMO requirements.

     A prenegotiation position that includes an independent Government cost estimate, a
     technical evaluation with a review of labor hours, audit assistance by outside
     agencies to review direct and indirect rates, and weighted guideline calculations are


                                            9
    crucial to determining whether the Government is receiving a fair and reasonable
    price on a sole source contract. A contracting officer should not certify that the price
    is fair and reasonable without the results of those analyses.

    The U.S. Government cannot assure NAPMO that the $1.32 billion price paid for the
    Global Solution modification is fair and reasonable, in particular, the portion of the
    modification related to the priced options for NMT production and retrofit. The Air
    Force should not approve the award of the contract modification production and
    retrofit option contract line items until the contracting officer fully documents and
    justifies a fair and reasonable price.


Management Comments on the Finding and Audit Response
    Air Force Comments. The Deputy Assistant Secretary of the Air Force for
    Contracting, and the Commander, Electronic Systems Center, concurred that the
    price was determined without first completing a Government cost estimate, an
    integrated product team analysis, a technical evaluation of hours and labor mixes,
    audit assistance, and weighted guidelines to establish a negotiation objective for
    profit. However, the Deputy Assistant Secretary did not concur with our conclusion
    that the award was made without knowing whether Boeing had proposed an
    efficient, technically capable, or economically responsible solution. The Deputy
    Assistant Secretary stated that the U.S. Government was acting in the capacity of
    agent for NAPMO and that the contracting officer was following the express
    direction of the Chairman of the NAPMO Board of Directors and the NAPMA
    General Manager when approving the contract modification. Additionally, the
    Deputy Assistant Secretary stated that there were other management controls since
    the proposed Global Solution required the NAPMO Board of Directors conceptual
    approval and funding approval to proceed. Finally, ESC was working on a
    compressed time schedule because an approval by the December 2002 Board of
    Directors meeting was critical to timely implementation of the Global Solution.

    The Air Force has devised an action plan to which both NAPMA and Boeing have
    verbally agreed. The Air Force plan involves converting the options for the contract
    to an undefinitized contract action that uses the prices on the Global Solution as
    “not-to-exceed” prices on the undefinitized contract action until a new Boeing
    proposal is analyzed to determine fair and reasonable costs. Using an undefinitized
    contract action provides the most benefit to the NAPMO nations because production
    and retrofit program content and schedules would remain the same as under the
    Global Solution and would not be negotiated further. Under the undefinitized
    contract action approach, program content and schedule would not be negotiable and
    prices could only be equal to or less than the prices the NAPMO nations had
    previously determined to be acceptable. To begin the process, Boeing will be
    required to submit a new proposal for production and retrofit tasks that contains
    certified cost or pricing data and supporting documentation for technical and cost
    analysis.

    Audit Response. We stand by our conclusion that the award was made without
    adequately knowing whether Boeing had proposed an efficient, technically capable,
    or economically viable solution. The FAR mandates that the contracting officer


                                          10
    must determine whether prices are fair and reasonable. Without the preparation of a
    Government cost estimate, an analysis of the contractor’s proposal solution, a review
    of certified cost or pricing data, or a complete technical review, we find it difficult to
    determine how the contracting officer could have made the fair and reasonable
    determination. Responsible business and contracting processes involve the
    completion of cost estimates and technical evaluations to ensure efficient, technically
    capable, and economically viable solutions are developed by contractors to meet
    Government requirements. We agree that the U.S. Government acting as an agent
    for the NAPMO Board of Directors is important. As mentioned in the report, the
    former Principal Deputy Assistant Secretary of the Air Force for Acquisition and
    Management was also the Chairman of the NAPMO Board of Directors. This
    individual signed a “Letter of Intent to Finalize Negotiations between NAPMO and
    the Boeing Company on the Global Solution for the Completion of the NAPMO
    Mid-Term Modernisation Programme,” for $1.32 billion on October 15, 2002. The
    former Principal Deputy Assistant Secretary issued a letter of disqualification from
    participation in any matter relating to Boeing due to employment negotiations on
    November 5, 2002. The Global Solution contract modification for $1.34 billion
    ($1.32 billion plus $.02 billion for items not negotiated) was signed by an Air Force
    contracting officer on December 17, 2002. The former Principal Deputy Assistant
    Secretary went to work for Boeing in January 2003. Because of this relationship the
    importance that the award of the contract modification be closely scrutinized is
    greatly increased. Whether acting in the capacity of agent or supporting the U.S.
    Government, Defense contracting activities at all times have a responsibility and a
    duty to ensure contracts are both technically and economically reasonable and that
    objective analyses exist to support that determination.


Recommendations and Management Comments
    1. We recommend that the Deputy Assistant Secretary of the Air Force for
    Contracting as the U.S. representative to the North Atlantic Treaty
    Organization Airborne Early Warning and Control Program Management
    Organization Board of Directors recommend that production and retrofit
    option contract line items not be approved by the Board until thorough analyses
    of Boeing technical and cost proposals are completed by the United States Air
    Force Electronic Systems Center.

    Management Comments. The Deputy Assistant Secretary of the Air Force for
    Contracting concurred with the intent of the recommendation, but stated that the Air
    Force needs to award production and retrofit options as an undefinitized contract
    action to maintain the viability of the NATO E-3 Mid-Term Modernization Program
    while the Electronic Systems Center and the NATO Airborne Early Warning and
    Control Programme Management Agency conduct technical and cost analyses.
    Without using an undefinitized contract action, the Air Force estimates that it will
    take 9 ½ months to renegotiate the production and retrofit tasks. The delay will cost
    an additional $16 million based on escalation charges in the NATO E-3 Mid-Term
    Modernization Program contract that entitles the contractor to approximately
    $1.7 million for each month the production and retrofit award is delayed beyond
    March 15, 2004. The Deputy Assistant Secretary stated that the member nations of



                                           11
the NATO Airborne Early Warning and Control Program Management Organization
have stated that no additional program funding will be made available beyond the
current Global Solution requirement.

Audit Response. Although the Air Force comments do not fully agree with our
recommendation, the proposed action meets the intent of the recommendation. The
Air Force decision to use an undefinitized contract action as a bridging action does
not lessen the Air Force Electronic System Center’s responsibility to obtain and
document a fair and reasonable price for the NATO AWACS production and retrofit
tasks. According to the FAR subpart 16.603, a written preliminary contractual
instrument that authorizes the contractor to begin immediately to perform services
requires the head of the contracting activity to determine that no other contract is
suitable and also requires a negotiated definitization schedule that includes dates for
the submission of the contractor’s price proposal, the start of negotiations, and a
target date for definitization. The Electronic Systems Center Commander should
document his determination that no other contract is suitable and that a definitization
schedule will be prepared for the undefinitized contract action that includes dates for
the submission of the contractor’s price proposal, the start of negotiations, and a
target date for definitization. Furthermore, during the 180-day period for definitizing
the contract, the Air Force should be implementing the actions addressed in
Recommendation 2.

2. We recommend that the Commander, United States Air Force Electronic
Systems Center not exercise contract line item options contained in
Contract F19628-97-C-0112, modification P00068, until all of the following
actions are complete. We recommend that the Commander:

       a. Request a proposal with certified cost or pricing data from the Boeing
Company for all necessary labor, management, material, software,
consumables, and services to complete tasks as defined in the North Atlantic
Treaty Organization Mid-Term Production and Retrofit Statement of Work
and for spare parts associated with production and retrofit diminished
manufacturing sources.
Management Comments. The Commander concurred and stated that the Boeing
Company will be required to submit a standard proposal as part of definitizing the
contract action. Boeing will also be required to submit certified cost or pricing data
and supporting documentation for technical and cost analysis.

       b. Develop a Government cost estimate to complete the tasks contained
in the North Atlantic Treaty Organization Mid-Term Production and Retrofit
Statement of Work.

Management Comments. The Commander concurred and will develop a
Government cost estimate for use in determining price reasonableness.

      c. Assemble an expert team with the knowledge required to analyze
production and retrofit tasks for adequacy and efficiency.

Management Comments. The Commander concurred, but stated that a team
comprised of technical personnel involved in previous NATO AWACS production


                                      12
efforts would be reconvened to analyze production and retrofit tasks for adequacy
and efficiency only if the statement of work changes as a result of contract
definitization.

Audit Response. Management comments to this recommendation, as well as
comments made in response to the finding, indicate that a technical review of
Boeing’s proposed solution will not be accomplished unless changes are made to the
statement of work. We do not fully agree with this approach. This recommendation
is addressing the use of an expert team to conduct “fact finding” while analyzing the
Boeing proposal to ensure it fulfills the requirements of the contract statement of
work, a task that was started on the NATO E-3 Mid-Term Modernization Program
contract, but never completed. We request that the Commander of the Electronic
Systems Center reconsider his position and submit additional comments on the
recommendation.

       d. Perform a technical evaluation of the Boeing cost proposal.

Management Comments. The Commander concurred and will conduct a technical
evaluation of hours and labor mixes.

       e. Request audit assistance from Defense Contract Audit Agency to
review prime and subcontractor proposed direct and indirect rates.

Management Comments. The Commander concurred, but pointed out that foreign
subcontractors will be reviewed in accordance with the Multilateral Memorandum of
Understanding.

       f. Calculate weighted guidelines to determine reasonable profit and
share ratios.

Management Comments. The Commander concurred and stated that the program
office will use weighted guidelines, as appropriate, to determine a reasonable profit
level and to ensure share ratios appropriately reflect program risk.
      g. Negotiate a reasonable amount for bridge funding on the Engineering
and Manufacturing Development contract while the above actions are
underway.

Management Comments. The Commander concurred and stated bridge funding
will be provided under the Defense FAR Supplement procedures applicable to
undefinitized contract actions.

       h. When the above actions are complete, ensure a contracting officer
negotiates a fully documented and justifiable fair and reasonable price for the
production and retrofit phase of the North Atlantic Treaty Organization Mid-
Term Modernization Program.

Management Comments. The Commander concurred and stated that
documentation will be completed upon definitization of the contract.




                                      13
        i. Ensure the contracting officer completes a fully documented price
negotiation memorandum that contains a certification that the final negotiated
price is fair and reasonable.

Management Comments. The Commander concurred and stated that
documentation will be completed upon definitization of the contract.




                                    14
Appendix A. Scope and Methodology
   We reviewed documentation prepared from December 1978 through January 2004.
   To accomplish the audit objectives we reviewed the following:

      •   Agreements between the United States Government and NATO relating to
          the acquisition of the NATO E-3 Aircraft including: “Multilateral
          Memorandum of Understanding Among NATO Ministers of Defense on the
          NATO E-3 Cooperative Programme,” December 1978; “Memorandum of
          Agreement Between the NATO AEW&C Program Management Agency
          (NAPMA) and the United States Government Agent, the Directorate of
          Fighter, Command and Control, and Weapons Programs, Assistant Secretary
          of the Air Force (Acquisition),” March 30, 1993; and “Acquisition
          Agreement Between the United States Government and the NATO AEW&C
          Programme Management Organization (NAPMO) for Acquisition of the
          NATO E-3 Aircraft, Engines and Related Articles and Services,” January 17,
          2001. We reviewed the above documents to determine the Air Force and
          NATO authorities for planning, coordinating, contracting, administering,
          funding, and supporting the NMT program.

      •   Contractual documentation relating to Contract F19628-97-C-0112,
          October 10, 1997, between the Air Force ESC and Boeing, including:
          “Guidance to the Government/Boeing Team for the Development of a NATO
          Mid-Term Win/Win Global Solution Agreement,” September 26, 2002;
          “NATO Mid-Term Global Solution Business Agreement,” October 15, 2002;
          “Letter of Intent to Finalize Negotiations between NAPMO and The Boeing
          Company on the Global Solution for the Completion of the NAPMO Mid-
          Term Modernisation Programme,” October 15, 2002; “Litigation Risk
          Assessment for NATO AWACS Mid-Term EMD Restructure,” October 18,
          2002; “Price Negotiation Memorandum (PNM) for the Settlement of the
          Boeing Position Paper on the NMT EMD AWACS Program,” November 18,
          2002; “Final Price Negotiation Memorandum,” November 19, 2002; “Legal
          Review of Proposed Modification No. P00068 to Contract No. F19628-97-C-
          0112,” December 10, 2002; “Waiver of Requirement for Certified Cost and
          Pricing Data Contract,” no date (pertains to modification 00068); and
          modification 00068, December 17, 2002. We also reviewed contract
          specifications and engineering change proposals relating to contract
          modification 00068. We reviewed the above documents to determine
          whether senior level managers used correct business and contracting
          processes in conducting the negotiations of the Global Solution.

      •   Acquisition management documents supporting the NMT program including:
          Versions 1.0 (October 10, 1997) and 2.0 (August 2001) of the Operational
          Requirements Document for the NATO E-3 Mid-Term Modernization
          Program; “Single Acquisition Management Plan for the NATO Mid-Term
          Modernization Program,” April 10, 2001; “Acquisition Plan for the NATO
          Mid-Term Modernization Program: Engineering Manufacturing
          Development, Production and Retrofit,” July 30, 1997; “NATO Airborne
          Early Warning and Control Test and Evaluation Master Plan for the NATO
          E-3 Mid-Term Modernization Program,” July 28, 2000; “North Atlantic


                                      15
           Treaty Organization E-3 Midterm Upgrades Operational Test and Evaluation
           Plan,” July 14, 2003; “Mid-Term Initial Operational Test and Evaluation
           Results Summary,” December 10, 2003. We reviewed the above documents
           to determine the impact of the Global Solution on the acquisition strategy and
           program risk associated with the NMT program.

    We also contacted the staffs within Office of the Secretary of the Air Force,
    including personnel of the Assistant Secretary of the Air Force (Acquisition) and the
    General Counsel. Further, we contacted staffs at the Air Force Electronic Systems
    Center, the Offices of the North Atlantic Treaty Organization Airborne Early
    Warning and Control Program Management Organization, the Defense Criminal
    Investigative Service, and the Defense Contract Audit Agency.

    We received assistance from the Defense Contract Audit Agency on general
    information with respect to regulatory requirements for submitting cost or pricing
    data and specific information with respect to Boeing’s policies, procedures, and
    practices for submitting price proposals to the government.

    We performed this audit from December 2003 through February 2004 in accordance
    with generally accepted government auditing standards.

    Limitations. We did not review the management control program because the audit
    focused on answering the request from the Secretary of the Air Force to determine
    whether correct business and contracting processes were used in the negotiation and
    award of the Global Solution to the Boeing Company; therefore, our scope was
    limited to evaluating business and contracting practices support award of the Global
    Solution.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office has
    identified several high-risk areas in DoD. This report provides coverage of the
    high-risk area to “Improve processes and controls to reduce contract risk.”


Prior Coverage
    No prior coverage has been conducted on the NATO AWACS E-3 Program during
    the last 5 years.




                                         16
Appendix B. Global Solution Contract
            Modification Major Cost Areas
   Work to be accomplished under the Global Solution contract modification is grouped
   into five major cost areas. The EMD ceiling price increase was related to the
   negotiations and settlement of a cost overrun that occurred under the EMD contract.
   The NMT production and retrofit were options to begin the production phase for the
   NATO E-3 Mid-Term Modernization (NMT) Program designed to expand the
   performance and flexibility of the existing NATO E-3 fleet.

   1. EMD Ceiling Price Increase ($101.2 million). Initially, Boeing asserted it was
   entitled to a $220 million contract increase based on overruns on the contract caused
   by Government and NAPMA mismanagement. As a result, the Government
   requested Boeing to provide a position paper describing alleged Government causes
   of the overrun. The Government then performed reviews of the Boeing allegations
   and conducted several analyses including an overall analysis, a technical report, a
   technical analysis, a damage analysis, a Defense Contract Audit Agency (DCAA)
   analysis, a Defense Contract Management Agency (DCMA) analysis, and an Air
   Force Materiel Command Price analysis. As a result, the Government and Boeing
   agreed to settle the issues for $101.2 million. The agreement was based on providing
   both specification and schedule changes to Boeing, changing the contract from a
   Fixed-Price Incentive-Fee to a Firm Fixed-Price type contract, and releasing the
   Government from all known and unknown claims. Settlement was achieved on
   October 16, 2002.

           Position Paper. In June 2002, Boeing submitted a position paper asserting
   an entitlement to an adjustment in ceiling price of at least $220,473,623. Boeing
   alleged Government and NAPMA mismanagement through failure to define
   requirements, unreasonable interpretation of requirements, increase in the scope of
   requirements, unreasonable delay and lack of cooperation, and failure to disclose
   superior knowledge. The position paper included citations to case law supporting
   recovery of costs.

           Allegation Reviews. On October 18, 2002, the Assistant Secretary of the Air
   Force for Acquisition received an overall analysis of Boeing’s asserted entitlement to
   a contract price increase, a technical report prepared by ESC analyzing the factual
   contentions made in the Boeing position paper, a technical analysis prepared by an
   independent expert, and a damage analysis prepared by an independent expert. The
   analysis concluded that a negotiated settlement would place the risk of completing
   the remaining portion of the contract within the revised budget on Boeing and that
   keeping the matter open could increase the Government’s liability.

   2. NMT Production and Retrofit Options ($449.5 million) and Diminishing
   Manufacturing Sources Options ($23.4 million). The production and retrofit
   option will procure 17 mid-term aircraft kits developed under the EMD portion of
   the contract, 2 mission simulator kits, and spare parts. The previous AWACS
   configuration will be removed from the 17 NATO AWACS aircraft and mid-term
   kits will be installed. Of the 18 NATO AWACS aircraft, 1 will have the kit
   retrofitted under the EMD portion of the contract for test purposes.


                                        17
Since contract award, the problem of obtaining spare parts for maintenance and
replacement from diminishing manufacturing sources has become a larger and much
more costly portion of the program than originally anticipated. Under the proposed
modification option, Boeing accepts total responsibility for resolving issues related
to diminished manufacturing sources for spare parts critical to the delivery of the
production baseline.

3. Revised Long-Lead Items ($42.2 million). The modification establishes
contract line items for spare parts with long-lead times for delivery associated with
the pre-production phase of the EMD contract and spare parts with long-lead times
for delivery from diminished manufacturing sources.

4. EMD Specification Relief (not separately priced). The Government and
Boeing, with concurrence from NAPMO, have agreed to performance requirement
changes including clarification of required system response times, reduction in the
number of tracks handled by the system, and adjustment of output power
requirements. The value of the specification relief was not quantified.




                                      18
Appendix C. Program Risk Reduction
   Contract modification P00068 will reduce program risk in executing the NATO
   AWACS Mid-Term Modernization Program. Specifically, as a result of
   modification P00068, Air Force and NATO:

              •   revised the program acquisition strategy to require that the
                  Commander, NATO Force Command, make an aircraft retrofit
                  decision based on the successful results of operational test and
                  evaluation;

              •   better defined contract specifications through an engineering change
                  proposal and established the functional baseline configuration for
                  contract modification P00068; and

              •   included contractor performance events and authorized the
                  contracting officer to reduce or suspend contract payments if the
                  contractor is not making satisfactory progress towards accomplishing
                  the performance events.

   Revised Program Acquisition Strategy. On November 21, 2002, the Air Force
   Program Executive Officer for Command, Control, and Combat Support Systems
   approved an update to the “Annex to the AWACS Modernization and Sustainment
   Support Single Acquisition Management Plan,” April 10, 2001 (the SAMP Annex).
   The SAMP Annex identifies the elements of the NATO Mid-Term Modernization
   Program and outlines the management approach to executing the program. The
   revised SAMP Annex provides that the Commander, NATO Force Command, will
   make the decision to retrofit the 17 NATO E-3 aircraft based upon the results of
   operational test and evaluation. This change reduces program risk by insuring that
   Boeing cannot begin work to retrofit the E-3 aircraft with the NMT capability until
   operational test and evaluation verifies that the NMT program meets all user
   requirements and that the system is operationally effective and suitable.

   Revised Program Schedule. The latest draft schedule, “Global Solution Phased
   Development / Initial Production Overview 8a,” January 7, 2004, scheduled
   operational test and evaluation to begin August 22, 2005, almost 24 months later
   than the original baseline schedule to reduce program risks. The extra time will be
   used to complete hardware and software design, systems testing, specification
   compliance verification, and logistics support before the operational test and
   evaluation.

   Defined Contract Specifications. Engineering Change Proposal 1360R2,
   “Changes to the SS204-16001-5A and SS204N-16002-5A Specifications to Align
   Verification Requirements and Update the Functional Baseline (CDRL A003),”
   October 29, 2002, better defines contract specifications through establishing the
   functional baseline for implementing contract modification P00068.

   The challenge in defining contract specifications resulted from the Air Force and
   NATO not fully defining system performance requirements in an Operational
   Requirements Document (ORD) before awarding the EMD contract. As a NATO


                                         19
(non-U.S. DoD) program, the NMT program was not subject to and did not fully
adhere to DoD policy on requirements generation, as defined in Chairman of the
Joint Chiefs of Staff Instruction (CJCSI) 3170.01B, "Requirements Generation
System," April 15, 2001. Specifically, CJCSI 3170.01B, as well as earlier versions
of the CJCSI dating back to June 13, 1997, requires that the ORD state systems
requirements in output oriented and measurable terms. CJCSI 3170.01B further
requires that system requirements should include threshold values (minimum
acceptable operational values below which the utility of a system becomes
questionable) and objective values (an operationally significant increment above the
threshold value). Neither the “Operational Requirements Document for the NATO
E-3 Mid-Term Modernization Program (Version 1.0),” October 10, 1997, or the
revision “Operational Requirements Document for the NATO E-3 Mid-Term
Modernization Program (Version 2.0),” August 23, 2001, state systems requirements
in output oriented and measurable terms, with threshold and objective values.
Furthermore, the requirements correlation matrix in Version 2.0 of the ORD stated
that NATO had not conducted a study or analysis to determine what minimum
system capabilities were required from an operational perspective. It also stated that
the ORD only levied requirements to improve system functionality and provided no
improvement factors.

Boeing Engineering Change Proposal 1360R2, which the Air Force accepted on
December 17, 2002, provides an agreement between ESC and Boeing, regarding
contract specifications. Examples of key provisions in the engineering change
proposal that will better define contract specifications and reduce program cost risk
include:

           •   establishing requirements for man-machine interface maximum
               response time for all switch action categories,

           •   establishing requirements for mission system and interface system
               segment track capacity (the number of ground elements or aircraft
               that the system can monitor) consistent with the expected density of
               European airspace,
           •   setting requirements for output power that are consistent with Federal
               Aviation Administration and NATO standards, and

           •   establishing requirements for a low frequency vibration to address a
               satellite communication modem problem.

Contractor Performance Events. To allow program management to better define
for ESC whether Boeing is demonstrating satisfactory performance, modification
P00068 includes 14 contractor performance events, with completion dates between
December 2003 and March 2008. At each event, the contracting officer has the
authority to reduce or suspend contract payments if the contracting officer
determines that the contractor has not made satisfactory progress. The following
table identifies the 14 contractor performance events and associated completion
dates.




                                      20
                               Contractor Performance Events



                     Performance Event                                   Completion Date
1. NATO Developmental Lab Diminishing                                 December 15, 2003
Manufacturing Sources Processor and Upgrade on
Dock at Boeing
2. NATO Avionics Integration Lab Diminishing                          April 1, 2004
Manufacturing Sources Processor and Upgrade
Installation and Checkout Complete
3. NATO Aircraft 1 Diminishing Manufacturing                          July 15, 2004
Sources Processor Upgrade and Installation and
Checkout Complete
4. Mission Computing Upgrade and Diminishing                          September 30, 2004
Manufacturing Sources Qualification Complete
5. STAR II* Replacement Identification Friend or Foe                  March 3, 2005
Processor Subcontractor Qualification Testing
Complete
6. NATO Aircraft 2 Retrofit Readiness Review                          June 10, 2005
Complete
7. Formal Maintenance Demonstration / Training /                      July 1, 2005
Regression Validation Complete
8. STAR II Replacement, First Production Delivery on                  October 12, 2005
Dock at Manching (Germany)
9. Ground Test Station Installation and Checkout                      December 22, 2005
Complete
10. Test Plan Readiness Review Complete                               February 24, 2006
11. Mission Simulator 1 Technical Order Verification                  March 15, 2006
and Validation Complete
12. NATO Aircraft 2 Delta Qualification Complete                      August 11, 2006
13. NATO Aircraft 2 Technical Order Verification and                  August 16, 2006
Validation Complete
14. Mission Simulator 2 Technical Order Verification                  March 14, 2008
and Validation Complete
 *
  STAR II is the Boeing nomenclature for the radar data processor for the identification friend or foe
 integrator, it is not an acronym.




                                              21
  Appendix D. Major Elements of the Global
              Solution Contract Modification
1. Restructure engineering manufacturing &         15. Add initial spares for priced option contract line
development contract line item numbers.            item number 2010.

2. Restructure integrated master plan events.      16. All follow-on spares for priced option contract line
                                                   item number 2011.

3. Revise the EMD statement of work.               17. Revise interim contractor support time and
                                                   material requirements.

4. Revise EMD contract deliverable requirements    18. Add software change working group time and
lists.                                             material requirements.

5. Increase the EMD fixed-price incentive-firm     19. Revise lab and aircraft time and material
portion of the contract-ceiling price.             maintenance requirements.

6. Convert EMD fixed-price-incentive firm sub-     20. Add a not-to-exceed requirement defining on-site
contract line item numbers to firm-fixed price.    team operator replacement support requirement
                                                   contract line item number 5001.

7. Delete Period 4 of the EMD award fee.           21. Add a not-to-exceed requirement defining
                                                   disposition of priority 3 & 4 contract line item
                                                   number 5002.

8. Revise the EMD contract line item number        22. Add a not-to-exceed requirement defining satellite
delivery schedule.                                 communication modem sway resolution contract line
                                                   item number 5003.

9. Incorporate Engineering Change                  23. Add a not-to-exceed requirement defining
Proposal 1360R2.                                   availability of operations manuals for initial
                                                   operational test and evaluation contract line item
                                                   number 5004.

10. Add EMD Diminished Manufacturing Sources       24. Add a not-to-exceed requirement defining
sub-contract line item number.                     commercial off the shelf software with diminishing
                                                   manufacturing sources responsibility contract line item
                                                   number 5005.

11. Reduce and deobligate the long-lead phase 1    25. Add not-to-exceed requirement defining additional
contract line item number 1002.                    test effort to support IMS 7d contract line item
                                                   number 5006.

12. Reduce and deobligate the diminished           26. Add a special contract clause requirement for cost
manufacturing sources bridge time-and-materials.   as an independent variable (CAIV), H.C.78.

13. Add long-lead phase II requirements.           27. Incorporate special release of claims language.

14. Add production and retrofit priced option      28. Progress payments are not allowed on former
contract line item numbers.                        EMD fixed price incentive firm contract line item
                                                   numbers that have been converted to firm fixed price
                                                   contract line item numbers.



                                                    22
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, International Cooperation
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)
General Counsel of the Department of Defense
Special Assistant to the Deputy Secretary of Defense

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Secretary of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Deputy Assistant Secretary of the Air Force for Contracting
Commander, U.S. Air Force Electronic Systems Center

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency

Non-Defense Federal Organizations
Department of Justice
Office of Management and Budget
Office of Federal Procurement Policy




                                           23
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Commerce, Science, and Transportation
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee on
  Government Reform
House Subcommittee on National Security, Emerging Threats, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations, and
  the Census, Committee on Government Reform




                                          24
Department of the Air Force Comments




                     25
26
27
28
29
30
31
32
     Final Report
      Reference




       Revised
       Page 12




33
34
     Final Report
      Reference




       Revised



       Revised




       Revised




35
Final Report
 Reference




  Revised




  Revised


  Revised


  Revised


  Revised




  Revised




  Revised




               36
     Final Report
      Reference



       Revised




       Revised


       Revised




       Revised




       Revised




       Revised




37
Final Report
 Reference




  Revised




  Revised



  Revised




  Revised
  Page 19




               38
     Final Report
      Reference


       Revised
       Page 22




39
Team Members
The Acquisition Directorate and the Contract Management Directorate, Office of
the Deputy Inspector General for Auditing of the Department of Defense prepared
this report. Personnel of the Office of the Inspector General of the Department of
Defense who contributed to the report are listed below.
Terry L. McKinney
Harold C. James
Timothy E. Moore
Robert E. Bender
Chrispian M. Brake
Patrick E. McHale
Karen A. Ulatowski
Kevin G. Burrowes
Breon E. Dehoux
Theresa L. Tameris
Defense Contract Audit Agency Team Member

Sterling Munro
